No. 19-1231

In the Supreme Court of the United States
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, PETITIONERS
v.
PROMETHEUS RADIO PROJECT, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

REPLY BRIEF FOR THE PETITIONERS
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
I.

The FCC possesses broad discretion to regulate
media ownership in the public interest ......................... 2
II. Respondents identify no sound basis for the court
of appeals’ vacatur of the challenged FCC orders ....... 5
A. The court of appeals disregarded the statutory
text .............................................................................. 6
B. The court of appeals substituted its judgment
for that of the agency ................................................ 8
1. The court of appeals ignored relevant
context.................................................................. 9
2. The court of appeals’ specific critiques of
the Commission’s analysis were misplaced.... 11
3. In the Reconsideration Order, the FCC
adequately explained its reasons for
departing from the 2016 Order ....................... 18
C. The court of appeals disrupted the proper
functioning of Section 202(h) reviews ................... 21
D. The court of appeals’ remedy was overbroad....... 23
TABLE OF AUTHORITIES

Cases:
Capital Network Sys., Inc. v. FCC, 3 F.3d 1526
(D.C. Cir. 1993) ................................................................... 12
FCC v. National Citizens Comm. for Broad.,
436 U.S. 775 (1978).................................................. 2, 4, 8, 17
FCC v. WNCN Listeners Guild, 450 U.S. 582 (1981) .... 6, 17
Massachusetts v. EPA, 549 U.S. 497 (2007) ....................... 12
Motor Vehicle Mfrs. Ass’n of the U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29 (1983) ............. 2, 17
National Broad. Co. v. United States, 319 U.S. 190
(1943) .................................................................................... 17

(I)

II
Cases—Continued:

Page

Prometheus Radio Project v. FCC, 373 F.3d 372
(3d Cir. 2004), as amended (June 3, 2016),
cert. denied, 545 U.S. 1123 (2005) ..................................... 22
Prometheus Radio Project v. FCC, 652 F.3d 431
(3d Cir. 2011), cert. denied, 567 U.S. 951 (2012) .............. 23
Stilwell v. Office of Thrift Supervision,
569 F.3d 514 (D.C. Cir. 2009) ............................................... 2
Vermont Yankee Nuclear Power Corp. v. Natural
Res. Def. Council, Inc., 435 U.S. 519 (1978) ....................... 6
Statutes:
Administrative Procedure Act, 5 U.S.C. 701 et seq.............. 2
5 U.S.C. 706(2)(A) ............................................................ 24
Telecommunications Act of 1996, § 202(h),
47 U.S.C. 303 note...................................................... passim
47 U.S.C. 303 ............................................................................ 5
47 U.S.C. 309(a) ....................................................................... 5
Miscellaneous:
Expanding the Economic & Innovation Opportunities of Spectrum Through Incentive Auctions,
In re, 29 FCC Rcd 6567 (2014) .......................................... 16
2002 Biennial Regulatory Review, In re,
18 FCC Rcd 13,620 (2003) .................................... 7, 8, 12, 13
2014 Quadrennial Regulatory Review, In re,
29 FCC Rcd 4371 (2014) ..................................................... 13

In the Supreme Court of the United States
No. 19-1231
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, PETITIONERS
v.
PROMETHEUS RADIO PROJECT, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

REPLY BRIEF FOR THE PETITIONERS

After the Federal Communications Commission
(FCC or Commission) adopted comprehensive reforms
of outdated media ownership rules, the court below vacated those reforms solely on the ground that the Commission had not adequately assessed their anticipated
effects on ownership by minorities and women. The
court ordered the FCC on remand to “ascertain on record evidence the likely effect of any rule changes it proposes * * * on ownership by women and minorities,
whether through new empirical research or an in-depth
theoretical analysis.” Pet. App. 34a. That directive is
untenable. Although the FCC has traditionally treated
(and continues to treat) minority and female ownership
as a relevant criterion in its assessment of the public interest, neither the governing statute nor the Commission accords that factor controlling weight. The court’s
approach was especially unwarranted because the agency
(1)

2
had adopted the challenged rule changes based on considerations other than minority and female ownership—
namely, the changes’ beneficial effects (undisputed here)
on competition and localism.
In defending the decision below, respondents decontextualize the FCC’s assessment of minority and female
ownership, treating it as a motivating factor rather than
(as the Commission did) as a potential reason for caution in reforming the ownership rules. Respondents flyspeck the FCC’s evidentiary analysis, pointing to irrelevant materials that the Commission purportedly overlooked and ignoring the agency’s cautious approach to a
complicated question on an imperfect record. And respondents do not defend the court of appeals’ remand
instruction. The decision below should be reversed.
I. THE FCC POSSESSES BROAD DISCRETION TO REGULATE MEDIA OWNERSHIP IN THE PUBLIC INTEREST

“The scope of review under the ‘arbitrary and capricious’ standard is narrow and a court is not to substitute
its judgment for that of the agency.” Motor Vehicle
Mfrs. Ass’n of the U.S., Inc. v. State Farm Mut. Auto.
Ins. Co., 463 U.S. 29, 43 (1983). Consistent with that
principle, this Court has repeatedly affirmed the FCC’s
broad discretion to regulate in the public interest and to
make predictive judgments based on imperfect information. See, e.g., FCC v. National Citizens Comm. for
Broad., 436 U.S. 775 (1978) (NCCB); see also Stilwell v.
Office of Thrift Supervision, 569 F.3d 514, 519 (D.C.
Cir. 2009) (Kavanaugh, J.) (“The [Administrative Procedure Act, 5 U.S.C. 701 et seq. (APA),] imposes no general obligation on agencies to produce empirical evidence.”).
Judicial deference is particularly appropriate when
the Commission acts pursuant to Section 202(h) of the

3
Telecommunications Act of 1996, 47 U.S.C. 303 note,
which establishes an “iterative process” through which
the FCC keeps pace with market developments by taking “a fresh look at its rules every four years” and reassessing “how its rules function in the marketplace.”
Pet. App. 48a (Scirica, J., concurring in part and dissenting in part). Section 202(h)’s quadrennial-review
mandate demands predictive judgments based on imperfect information, while mitigating any harmful effects of agency policy choices by requiring frequent reappraisal. Gov’t Br. 26-27.
A. Respondents acknowledge the FCC’s broad statutory authority and the need for judicial deference to
the agency’s rational predictive judgments and weighing of competing policies. See Resp. Br. 32, 44 (referring to these principles as “undisputed” and “uncontroverted”). They dispute the agency’s leeway to make
predictive judgments under Section 202(h), however,
arguing that the statute “focus[es] the inquiry on the
past and present,” not the future. Id. at 48. That claim
misapprehends the mandate that Section 202(h) imposes.
To determine whether a particular ownership rule is
“no longer in the public interest,” 47 U.S.C. 303 note,
the FCC must assess the rule’s actual and projected impact under present and future conditions. To be sure,
historical experience will often be a critical consideration in determining whether a rule continues to serve
the public interest and will do so in the future. But when
changed conditions prevent an ownership rule from continuing to serve beneficial purposes, Section 202(h) requires the agency to repeal or modify the rule accordingly, even if the rule has advanced the public interest

4
in the past. The agency’s analysis under Section 202(h)
is thus necessarily predictive.
Respondents also contend that a “wrong call on publicinterest harm * * * cannot readily be undone even if
rules are later restored.” Resp. Br. 49. Although respondents correctly note the FCC’s “entrenched policies limiting divestiture,” ibid., the Commission retains
the authority to order divestiture in cases where prior
mergers threaten to work serious harm, and it has exercised this authority in the past. See, e.g., NCCB, 436
U.S. at 779 (adopting limited divestiture policy). And to
the extent a revised rule produces unexpected adverse
consequences, the Commission can minimize further
harm by amending the rule prospectively in a subsequent quadrennial review proceeding.
Ultimately, it is beside the point whether Section
202(h) supplants “settled judicial review standards”
with “more lenient scrutiny.” Resp. Br. 48-49. At a minimum, the quadrennial-review scheme is plainly relevant to determining the level of certainty needed before
the agency may modify its ownership rules to better
serve the public interest.
B. Petitioners in No. 19-1241 (Industry Petitioners)
also seek to limit the FCC’s statutory discretion, albeit
in a different manner. In their view, “[b]ecause competitive findings and judgments are the only ones Congress
specifically instructed the Commission to make, the
FCC’s competition analysis required it to modify or repeal the rules it did in the Reconsideration Order.” Industry Pet. Br. 36 (emphasis altered). Although the
statute undoubtedly emphasizes competition, Industry
Petitioners are wrong in suggesting that competition
must be dispositive in all Section 202(h) proceedings.

5
The agency possesses general rulemaking powers to
regulate in the public interest, see 47 U.S.C. 303; 47
U.S.C. 309(a), and nothing in Section 202(h) curtails the
scope of that authority. Section 202(h) requires the
agency to review its ownership rules quadrennially to
determine whether they “are necessary in the public interest as the result of competition,” and to “repeal or
modify any regulation it determines to be no longer in
the public interest.” 47 U.S.C. 303 note. That language
requires the Commission to determine at regular intervals whether an ownership rule continues to serve the
public interest in light of changed competitive conditions. But while the statute identifies competition as a
criterion the FCC must consider, the agency’s ultimate
determination whether the rule promotes the public interest encompasses additional considerations. See
Gov’t Br. 5.
II. RESPONDENTS IDENTIFY NO SOUND BASIS FOR THE
COURT OF APPEALS’ VACATUR OF THE CHALLENGED
FCC ORDERS

In the three Orders under review, the FCC carefully
considered the record evidence, acknowledged gaps in
the available data, and reached reasonable policy conclusions in light of both the record and the agency’s own
extensive experience. In the Reconsideration Order,
Industry Pet. App. 64a-310a, the Commission rationally
determined that repeal of certain ownership rules could
produce valuable public benefits, and that the original
purposes of the repealed rules—preserving competition
and promoting viewpoint diversity—no longer apply. It
further concluded that the record evidence did not suggest that repealing those rules would harm minority
and female ownership such that the rules should be retained despite repeal’s competitive benefits. Gov’t Br.

6
28-31. In the 2016 and Incubator Orders, J.A. 101-576,
577-704, the Commission adopted eligibility criteria designed to promote the success of new entrants and small
businesses in broadcast markets, a goal that no party
denies is in the public interest. Gov’t Br. 32. Respondents identify no sound basis for the court of appeals’ vacatur of those Orders.
A. The Court Of Appeals Disregarded The Statutory Text

Section 202(h) reflects the Commission’s authority to
regulate in the “public interest.” 47 U.S.C. 303 note.
That language vests the FCC with “broad discretion in
determining how much weight should be given to” goals
like racial and gender diversity, “and what policies
should be pursued in promoting” those goals. FCC v.
WNCN Listeners Guild, 450 U.S. 582, 600 (1981). The
court of appeals did not question the reasonableness of
the FCC’s competition-based affirmative rationales for
overhauling its ownership rules. The court nevertheless vacated the challenged agency orders and held that
“[o]n remand the Commission must ascertain on record
evidence the likely effect of any rule changes it proposes
* * * on ownership by women and minorities, whether
through new empirical research or an in-depth theoretical analysis.” Pet. App. 34a. That holding displaces the
Commission’s wide-ranging public-interest analysis and
imposes an extra-statutory obligation in violation of
Vermont Yankee Nuclear Power Corp. v. Natural Res.
Def. Council, Inc., 435 U.S. 519 (1978).
Respondents make no serious effort to defend this
remand instruction. Instead, they contend that the decision below permits the Commission to “transparently
re-weigh competing public-interest considerations,”
thus “obviating the need for extensive analysis of own-

7
ership diversity, should the Commission decide to explicitly abandon the goal.” Resp. Br. 55. But the court’s
opinion says no such thing. Rather, it unambiguously
directs the Commission to conduct an intensive analysis
of minority and female ownership as a prerequisite to
rulemaking. See Pet. App. 34a.
Respondents assert that the “Commission’s reasoned judgment has been that ownership diversity
serves the public interest,” both “in its own right, and
because of its ‘potential to strengthen competition and
[viewpoint] diversity’ through greater participation by
small businesses, ‘including those owned by minorities
and women.’ ” Resp. Br. 31 (quoting In re 2002 Biennial
Regulatory Review, 18 FCC Rcd 13,620, 13,637 (2003)
(2002 Review)) (brackets in original). The FCC has long
recognized that a regulatory policy’s likely impact on
minority and female ownership may be relevant to the
agency’s determination whether that policy would serve
the public interest. It does not follow, however, that the
agency must generate new data or studies to quantify
that impact whenever it decides for other reasons that
regulatory changes are warranted.
Respondents’ repeated use of the term “ownership
diversity” also elides the fact that levels of minority and
female ownership are only one measure of the extent to
which ownership of broadcast stations is “diverse.” The
FCC has recognized ownership by small businesses and
new entrants as another desirable form of ownership diversity. And the agency has historically sought to foster, as a salutary form of ownership diversity, the presence of multiple independently owned stations in a single market. See, e.g., 2002 Review, 18 FCC Rcd at
13,637; 2016 Order, J.A. 230-231. Indeed, the longstanding ownership rules that the agency sought to

8
overhaul in the Reconsideration Order were originally
adopted to promote that more generalized form of ownership diversity, not to facilitate ownership by any particular type of individual or entity. See, e.g., NCCB, 436
U.S. at 786.
Respondents similarly exaggerate the relationship
between minority and female ownership and viewpoint
diversity. Resp. Br. 31-32. The FCC has traditionally
focused on ownership diversity writ large—not minority and female ownership specifically—as conducive to
viewpoint diversity. See, e.g., 2002 Review, 18 FCC Rcd
at 13,630; 2016 Order, J.A. 172 & n.206, 230-231. In the
2016 Order the Commission noted, in the course of concluding that any nexus between minority and female
ownership and viewpoint diversity was insufficient to
satisfy constitutional requirements for race- or sexbased government actions, that “[t]he two recent studies that directly address the impact of minority ownership on viewpoint diversity find almost no statistically
significant relationship between such ownership and
their measure of viewpoint diversity.” J.A. 397-398.
B. The Court Of Appeals Substituted Its Judgment For
That Of The Agency

In assessing the likely effect of its rule changes on
minority and female ownership, the Reconsideration
Order reached cautious, reasonable conclusions that
were consistent with the record evidence and with the
Commission’s own prior conclusions on the subject. The
court of appeals’ critiques of that analysis lack merit
and disregard the substantial deference owed to the
FCC’s predictive judgments. See, e.g., NCCB, 436 U.S.
at 813-814 (noting that, when the “factual determinations” “involved in the Commission’s decision * * *
[a]re primarily of a judgmental or predictive nature,”

9
“complete factual support in the record for the Commission’s judgment or prediction is not possible or required”). Respondents’ defenses of the decision below
are similarly unpersuasive.
1. The court of appeals ignored relevant context

The Reconsideration Order’s overhaul of the ownership rules was driven by the FCC’s findings that the
original rationales for those rules no longer apply, and
that modifying or repealing those rules would substantially further competition and localism in the broadcast
industry. See, e.g., Reconsideration Order, Industry
Pet. App. 87a (“We affirm the Commission’s longstanding determination that the [newspaper/broadcast crossownership] rule does not advance localism and competition goals, and find today that it is no longer necessary
to promote viewpoint diversity.”). The court of appeals
did not question those findings, which were supported
by robust analysis and a wealth of data. See Gov’t Br.
28-30.
Contrary to respondents’ contention, the Commission did not “rely[ ] on the data [pertaining to minority
and female ownership] to justify relaxing the rules.”
Resp. Br. 35. Rather, the FCC discussed the Order’s
potential effect on minority and female ownership only
in the course of analyzing whether possible adverse impacts in that regard should dissuade the agency from
making changes that were otherwise highly beneficial.
If the agency had believed that revamping the rules
would likely cause a reduction in minority and/or female
ownership, it would have had to balance that adverse effect against the competitive benefits of the contemplated changes. But the absence of affirmative evidence
suggesting an adverse impact on minority or female
ownership obviated the need for any such balancing.

10
Based on that lack of evidence, and taking due account
of predictive uncertainty and the imperfections of the
available data, the agency concluded that it could not
“justify retaining the rule[s] * * * based on the unsubstantiated hope that the rule[s] will promote minority and
female ownership.” Reconsideration Order, Industry
Pet. App. 140a; see id. at 122a, 162a (similar).
The court of appeals misapprehended the Reconsideration Order’s logic, largely ignoring the Commission’s
findings on competition and localism and consistently
overstating the significance of predicted effects on minority and female ownership. Respondents repeat that
error here. See, e.g., Resp. Br. 22 (arguing that the Order “hinged on a finding that the change would not
harm the agency’s longstanding goal of fostering ownership diversity”) (emphasis added). Respondents thus
focus on a single public-interest consideration, without
attention to the broader context in which the FCC analyzed that factor. And they identify nothing in the Reconsideration Order suggesting that the Commission
would have retained the prior ownership rules had it
reached a different conclusion as to the likely effect of
repeal on minority and female ownership. Contra id. at
36.
Contrary to respondents’ contention, the government does not “seek[ ] to distance itself ” from the FCC’s
determination that its rule changes would likely “ ‘have
no material effect on minority and female ownership.’ ”
Resp. Br. 33-34 (citation omitted). Rather, our point is
simply that the FCC (a) recognized that the available
evidence did not definitively resolve the question of
likely impact on minority and female ownership, and (b)
decided that the existing ownership rules should be
overhauled for reasons independent of that impact. See

11
Gov’t Br. 38-39. As the FCC explained with respect to
the newspaper/broadcast cross-ownership rule, “[t]he
record does not suggest that restricting common ownership of newspapers and broadcast stations promotes minority and female ownership of broadcast stations, and
there is evidence in the record that tends to support the
contrary.” Reconsideration Order, Industry Pet. App.
122a (emphasis added). That characterization of the
record was eminently reasonable, as was the Commission’s decision that modification of the rules would produce substantial benefits to competition and localism.
2. The court of appeals’ specific critiques of the
Commission’s analysis were misplaced

The court of appeals accused the FCC of failing to
set forth data specific to female ownership and of conducting an insufficiently rigorous analysis of minority
ownership. Respondents repeat those charges here.
Resp. Br. 37-40. But the Commission repeatedly solicited input on this point, and when commenters failed to
submit meaningful evidence, see Pet. App. 33a, 45a, the
agency drew reasonable inferences from the available
data, while acknowledging many of the analytical gaps
that respondents now highlight. See, e.g., 2016 Order,
J.A. 215 nn.325-326.
a. As to female ownership, respondents acknowledge
the absence of historical data, but contend that “the
Commission had other options.” Resp. Br. 40. They
point to a decade-old study that purports to identify an
inverse relationship between market consolidation and
minority and female radio-station ownership. But that
study expressly disclaimed any effort to “examine historical trends in female and minority radio station ownership.” C.A. App. 502. Respondents also cite (Br. 40)
a comment letter suggesting that the FCC should study

12
the effects of the repeal and subsequent reinstatement
of the Failed Station Solicitation Rule, which requires
certain owners of failed television stations to attempt to
secure out-of-market buyers for their stations before
selling to in-market buyers. See C.A. App. 1076; 2002
Review, 18 FCC Rcd at 13,708. But that rule does not
directly limit the number of broadcast stations that a
particular entity may own, and respondents do not explain its relevance.
In any event, there is no legal basis for respondents’
contention that commenters can effectively require the
FCC to investigate new rationales for preexisting rules
before it can repeal those rules. Proposing new rationales for an old rule that no longer serves its original purpose is analogous to proposing a new rule. And in that
context, the burden is plainly on the submitter to offer
evidence in support of its proposal. See Massachusetts
v. EPA, 549 U.S. 497, 527-528 (2007); Capital Network
Sys., Inc. v. FCC, 3 F.3d 1526, 1533 (D.C. Cir. 1993);
Gov’t Br. 30-31. Rather than dispute this point, respondents contend that “it is the Commission’s burden
to determine whether its rules are necessary for the
public interest.” Resp. Br. 47-48. But the Commission
did precisely that. Respondents’ real argument is that
the agency was not allowed to make a public-interest
determination without first gathering additional data,
but they identify no source of law suggesting that commenters can hold FCC rulemakings hostage simply by
identifying purportedly fruitful areas for new research.
b. With respect to minority ownership, respondents
criticize (Br. 37-39) the Commission’s analysis of historical ownership data. Those data reflect a short-term decrease in minority ownership levels, followed by a long-

13
term increase in the number of minority-owned broadcast stations, after certain ownership restrictions were
relaxed in the late 1990s. See Resp. Br. 37. Respondents observe that the long-term increase in minority
ownership after those rule changes does “not disprove
that relaxation [of ownership restrictions] harms ownership diversity.” Id. at 38. To be sure, the fact that
minority ownership levels have risen since the prior
ownership-rule changes were adopted does not eliminate the possibility that the increase would have been
even greater if those changes had not been made. But
the sequence of events described above at least casts
substantial doubt on respondents’ hypothesis that the
rule changes systematically suppressed minority ownership.
Even assuming a causal relationship between the
ownership rules and minority ownership levels, the
more natural inference from the temporary dip in minority ownership is that the rule changes facilitated voluntary sales by minority owners, without imposing any
barriers to entry for new minority owners. The Commission does not have a policy of preventing owners
from voluntarily leaving the market. See, e.g., In re
2014 Quadrennial Regulatory Review, 29 FCC Rcd
4371, 4456 (2014) (2014 Review), J.A. 87 (“Even assuming that some minority-owned stations would become
acquisition targets if the rule were loosened, we do not
believe that such a possibility necessarily would preclude rule modifications that are otherwise consistent
with our statutory mandate.”). Rather, the Commission’s diversity initiatives have reasonably emphasized
removing barriers to entry for new station owners, including minority owners. See, e.g., 2002 Review,
18 FCC Rcd at 13,634-13,635 (focusing on “ ‘provid[ing]

14
minorities and women with greater opportunities to enter the mass media industry’ ” and on “the nature of
market entry barriers”) (citation omitted). Respondents do not show that historical changes to the ownership rules disserved that goal.
Respondents further contend that “a better analysis
was in the record,” citing a study purporting to show
“that the 1990s television rule changes contributed to
the loss of 40% of the previously minority-owned stations.” Resp. Br. 39. That conclusion is both flawed and
inapposite. The study examined two rule changes: a
modification of the local television ownership rule and a
modification of the national television ownership cap.
C.A. App. 570. The national cap has minimal relevance
to the Orders at issue in this case, which involve local
ownership rules. Of the 17 transfers of minority-owned
stations to non-minority owners that the study identifies as occurring after the rule changes, 12 would have
been permitted under the prior version of the local television ownership rule. Ibid. And even with respect to
the other five sales, the minority owners of the relevant
stations might have sold to other non-minority buyers if
the prior version of the rule had remained in effect. Cf.
2014 Review, J.A. 88 (“[A] station owner that wishes to
exit the market is not prevented from selling its station
under the current [newspaper/broadcast cross-ownership]
ban, which merely eliminates newspaper owners as potential buyers.”).
As the study notes, moreover, minority buyers acquired 26 stations following the rule changes, for a net
gain in minority ownership. C.A. App. 570 n.37; see Reconsideration Order, Industry Pet. App. 120a (“[T]he
record provides no evidence that minority- and femaleowned stations will be singled out for acquisition.”).

15
The study is thus fully consistent with the hypothesis
described above: that prior rule changes at most facilitated the voluntary departure of certain minority owners from the market, without impeding long-term market entry by minority buyers. 1
In all events, respondents overstate the centrality of
the historical ownership data to the Commission’s analysis. Resp. Br. 43-44. As Judge Scirica recognized below, “[e]ven if the FCC could obtain improved data on
these decades-old regulatory changes, that information
offers only modest predictive value for the consequences of the FCC’s current rules regarding modernization.” Pet. App. 51a (concurring in part and dissenting in part). Respondents find it “odd” that the government would question the probative force of these data,
given that “it was the Commission that concluded the
historical data was probative in the first place.” Resp.
Br. 45. But the FCC recognized the flaws in those data,
see 2016 Order, J.A. 215 nn.325-326, and analyzed their
implications cautiously and out of necessity, see, e.g.,
Reconsideration Order, Industry Pet. App. 139a (noting
that the data “suggest that previous relaxations of [certain ownership] rules have not resulted in reduced levels of minority and female ownership”) (emphasis
added).
In addition, as respondents acknowledge (Br. 45),
the historical data did not form the sole basis for the
Commission’s conclusion as to likely impact on minority
Respondents also note that the cited study attempted to “correct[ ]” the NTIA data, and they argue that the FCC should have
done the same. Resp. Br. 46-47. But the authors of the study conceded that their time-intensive, ad hoc efforts—such as “interviews
with station representatives”—had not produced “a rigorous census
of all stations.” C.A. App. 568.
1

16
and female ownership. “[T]wo organizations representing minority media owners”—including one of the respondents in this case—“s[ought] relief from the
[newspaper/broadcast cross-ownership] rule’s restrictions.” Reconsideration Order, Industry Pet. App.
117a; see id. at 118a (“NABOB has reversed its longheld opposition to the elimination of the ban on
newspaper/radio cross-ownership, arguing that the
broadcast industry—particularly NABOB’s minorityowned member stations—should not be constrained
from competing for audience share and advertising revenue.”). The Reconsideration Order also noted comments suggesting that “some minority media owners
may be poised to pursue cross-ownership acquisition
and investment opportunities,” id. at 120a, and observed that background “constraints of the Local Radio
Ownership Rule” would help preserve “broadcast radio” as “an important entry point into media ownership,” id. at 138a-139a.
c. Respondents also advance an argument that the
court of appeals did not address: that the Commission
failed to consider the effects of the television “incentive
auction,” under which broadcasters who voluntarily relinquish their spectrum rights may receive incentive
payments to make certain portions of the spectrum
available for new uses. Resp. Br. 40; see In re Expanding the Economic & Innovation Opportunities of Spectrum Through Incentive Auctions, 29 FCC Rcd 6567,
6570 (2014). Respondents do not explain how the incentive auction is relevant to evaluating the effects of the
ownership rules on minority and female ownership.
And even assuming that some such causal link could exist, the Commission observed that “it is still too soon to

17
evaluate [the auction’s] impacts on the television marketplace,” though the agency anticipated being able to
do so “in the forthcoming 2018 Quadrennial Review proceeding.” Reconsideration Order, Industry Pet. App.
164a. The FCC further noted that “the initial results of
the auction suggest that the auction may not have a significant impact in the context of the Local Television
Ownership Rule.” Id. at 164a n.248.
* * *
Setting aside their specific critiques of the FCC orders at issue here, respondents’ defense of the court of
appeals’ decision reflects a pervasive failure to accord
sufficient weight to the agency’s factual findings and
policy judgments. See State Farm, 463 U.S. at 43. In
advancing the public interest, the Commission may
“rely on its judgment, based on experience,” “notwithstanding the inconclusiveness of the rulemaking record”—
particularly when the relevant evidence “is difficult to
compile” and the potential effects of the rule changes do
“ ‘not lend themselves to detailed forecast.’ ” NCCB, 436
U.S. at 796-797 (citation omitted); see National Broad.
Co. v. United States, 319 U.S. 190, 224 (1943) (“It is not
for us to say that the ‘public interest’ will be furthered
or retarded by the [regulations].”); WNCN, 450 U.S. at
600. Respondents are of course correct that “no precedent provides agencies free rein to premise their predictions on irrational evaluations of past events.” Resp.
Br. 44. But here, the Commission made rational judgments while acknowledging uncertainty on a single publicinterest factor that was not the affirmative basis for the
rule changes. The APA requires no more.

18
3. In the Reconsideration Order, the FCC adequately
explained its reasons for departing from the 2016 Order

In arguing that the FCC behaved in an arbitrary and
capricious manner, respondents assert that the Reconsideration Order reflects an “unexplained about-face”
from the 2016 Order. Resp. Br. 42. Respondents characterize the 2016 Order as “f[i]nd[ing] that retaining the
current rules would foster ownership diversity,” and
they describe the Reconsideration Order as “f[i]nd[ing],
on the same record, that retaining the rules would not
help and jettisoning them would do no harm.” Id. at 4142. Respondents’ claim of unexplained inconsistency—
which the court of appeals did not adopt, see Pet. App.
27a—rests on a misreading of the 2016 Order.
The 2016 Order largely retained the three major
ownership rules at issue here: the newspaper/broadcast
cross-ownership rule, the radio/television cross-ownership
rule, and the local television ownership rule. It did so
for the stated purposes of “promot[ing] competition”
and “viewpoint diversity,” and “not with the purpose of
preserving or creating specific amounts of minority and
female ownership.” J.A. 171-172, 293, 310.
Respondents emphasize the 2016 Order’s statement
that the pre-existing ownership rules were “consistent
with the Commission’s goal to promote minority and female ownership.” J.A. 171; see J.A. 293, 310 (similar).
Respondents construe that statement as an assertion
that the existing ownership rules would affirmatively
promote that goal. See Resp. Br. 42. But so long as
those ownership rules would not disserve the goal of
promoting minority and female ownership, retention of
the rules could accurately be described as “consistent

19
with” that objective. On that view, the statement is fully
consistent with the Reconsideration Order.
Respondents also emphasize the 2016 Order’s observation that the pre-existing ownership rules “promote[ ]
opportunities for diversity.” J.A. 172; see J.A. 293, 310
(same). But as the Reconsideration Order explained,
this observation “did not indicate a belief that the
rule[s] would promote minority and female ownership
specifically, but rather that the rule[s] would promote
ownership diversity generally by requiring the separation of [media] station ownership.” Industry Pet. App.
122a; see id. at 139a-140a, 162a (similar).
Respondents contend that this supposed “reinterpretation” “blinks reality.” Resp. Br. 42. But at a
minimum, the Reconsideration Order expressed a reasonable understanding of what the 2016 Order was trying to convey. In explaining how the ownership rules
“promote[ ] opportunities for diversity,” the 2016 Order
noted that the rules “help[ ] to ensure the presence of
independently owned broadcast television stations in
the local market, thereby indirectly increasing the likelihood of a variety of viewpoints and preserving ownership opportunities for new entrants.” J.A. 172 (local television ownership rule); see J.A. 293 (newspaper/broadcast
cross-ownership rule), 310 (radio/television crossownership rule). That explanation focused on a form of
ownership diversity—i.e., maximizing the number of independent media outlets in a given local market—
different from minority and female ownership levels.
See p. 7, supra (discussing different forms of ownership
diversity that the FCC has historically sought to promote).

20
Other portions of the 2016 Order cite evidence suggesting that the ownership rules do not materially affect minority and female ownership levels. See, e.g.,
2016 Order, J.A. 174-175 (finding long-term increase in
minority ownership following previous relaxation of local television ownership rule), J.A. 291-292 (“[W]e find
that the record fails to demonstrate that the” “modest
loosening” of the newspaper/broadcast cross-ownership
rule “we adopt today [is] likely to result in harm to minority and female ownership.”); see also Pet. App. 27a
(majority op.) (“Both the 2016 Report & Order and the
Reconsideration Order * * * concluded that the broadcast ownership rules have minimal effect on female and
minority ownership.”) (emphasis added). Indeed, it is
unclear on what basis the 2016 Order could have found
that the rules affirmatively promote minority and female ownership of broadcast stations.
With respect to the general weighing of the
competition-related costs and benefits associated with
the agency’s ownership rules, the Reconsideration Order undoubtedly reflected a substantial departure from
the 2016 Order. But the agency explained in detail its
reasons for concluding that, in light of extensive
changes to the media landscape, the ownership rules no
longer served the public interest. See Gov’t Br. 28-32.
The court below did not find that aspect of the FCC’s
analysis to be deficient. With respect to the specific issue of the link (or lack thereof) between the ownership
rules and minority and female ownership, the Reconsideration Order was neither an “about-face” nor “unexplained.” Resp. Br. 42.

21
C. The Court Of Appeals Disrupted The Proper Functioning
Of Section 202(h) Reviews

The court of appeals’ analysis is incompatible with
the statutory review framework Congress designed.
Section 202(h) establishes an iterative process through
which the FCC makes frequent assessments of the public interest, revises its rules accordingly, and then monitors the effect of the new rules for possible revision in
the next quadrennial review. See Part I.A, supra. By
requiring a high degree of certainty concerning potential impacts on minority and female ownership before
the Commission can act, the decision below impedes the
agency’s ability to revise its rules in light of competitive
changes in the marketplace and prevents the agency
from gathering data to inform future quadrennial reviews.
Respondents contend that “any purported ‘freezing’
of ownership rules is the Commission’s doing, not the
Third Circuit’s.” Resp. Br. 50. Respondents effectively
blame the FCC for tinkering with its approach over
time rather than “repeal[ing]” the ownership rules “entirely” when Section 202(h) was enacted. Ibid. But the
Commission’s incremental adaptation to changing market conditions and prior experience is a virtue, not a
vice. See, e.g., Reconsideration Order, Industry Pet.
App. 114a (“The Commission’s previous attempts to relax,” rather than repeal, “the rule demonstrate the difficulty in designing an approach that works effectively
for the range of market circumstances across the country.”). And there is no doubt that the Third Circuit’s
rulings have petrified outdated regulations. The blanket ban on newspaper/broadcast cross-ownership has
remained in place since 1975, despite three separate
FCC attempts to repeal it in full or in part. See Gov’t

22
Br. 44-45. That broadcast ownership rule adopted 45
years ago cannot plausibly be thought to reflect current
market realities. See Prometheus Radio Project v.
FCC, 373 F.3d 372, 398 (3d Cir. 2004), as amended (June
3, 2016), cert. denied, 545 U.S. 1123 (2005).
Respondents dismiss the Commission’s findings on
competition with the observation that “[t]he statutory
charge is to regulate in the public interest, not the
broadcasters’ competitive interest.” Resp. Br. 50. That
argument attacks a straw man. Advancing the interests
of individual broadcasters is not the Commission’s ultimate regulatory objective. But Section 202(h)’s text
and history reflect a clear congressional judgment that
competition is a critical consideration in promoting the
public interest. See Gov’t Br. 4.
As the Reconsideration Order explained in painstaking detail, the deregulatory changes to the ownership
rules—if permitted to go into effect—are likely to produce broad public benefits. For example, the Commission explained that “eliminating the [newspaper/broadcast
cross-ownership rule] will allow both broadcasters and
newspapers to seek out new sources of investment and
operational expertise, increasing the quantity and quality of local news and information they provide in their
local markets.” Reconsideration Order, Industry Pet.
App. 101a-102a. With respect to the local television
ownership rule, the FCC similarly noted that “television broadcasters’ important role makes it critical for
the Commission to ensure that its rules do not unnecessarily restrict their ability to serve their local markets
in the face of ever-growing video programming options.” Id. at 146a. The agency accordingly “adopt[ed]
common sense modifications” to the rule “that will help
local television broadcasters achieve economies of scale

23
and improve their ability to serve their local markets in
the face of an evolving video marketplace.” Id. at 147a.
Although respondents suggest (Br. 50) that the FCC’s
findings as to competition and localism are “hardly universally accepted,” the court below did not cast doubt
on those findings, which are supported by a wealth of
record evidence.
Respondents also fault the Commission for undue
delay between quadrennial proceedings. Resp. Br. 50.
But that criticism ignores the distorting effect of the
court of appeals’ repeated remands, which have hampered the agency’s ability to proceed efficiently, including by requiring it to address regulations other than
ownership rules within its Section 202(h) proceedings.
See, e.g., Prometheus Radio Project v. FCC, 652 F.3d
431, 472 (3d Cir. 2011) (requiring the Commission to address the eligible-entity definition “within the course of
[its] 2010 Quadrennial Review of its media ownership
rules”), cert. denied, 567 U.S. 951 (2012).
D. The Court of Appeals’ Remedy Was Overbroad

Although the court of appeals’ analysis pertained
only to discrete aspects of the Reconsideration Order,
see Pet. App. 27a, the court invalidated the Reconsideration and Incubator Orders in full, as well as the “eligible entity” definition from the 2016 Order, id. at 34a.
That was error.
In defending the court’s remedy, respondents speculate that, “[i]f a reasonable assessment of ownership
diversity convinces the Commission that tighter ownership limits are needed, it would almost certainly likewise alter the Commission’s assessment of how narrowly to draw its eligibility criteria for an incubator program or other ownership limit waivers.” Resp. Br. 53.
The Third Circuit did not embrace this reasoning, and

24
respondents cite nothing in the Orders indicating that
the eligible-entity definition and eligibility criteria are
contingent on the reasoning that underlies the ownershiprule changes. Speculation that an agency might wish to
do things differently in light of changed circumstances
is not a valid basis for vacating lawful agency action.
Indeed, respondents fail to identify any basis in the
APA to set aside any aspect of the 2016 and Incubator
Orders. In particular, the court identified no way in
which those Orders were “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with
law.” 5 U.S.C. 706(2)(A). Accordingly, those Orders
must stand, regardless of any defects in the Reconsideration Order.
* * * * *
For the foregoing reasons and those stated in the
government’s opening brief, the judgment of the court
of appeals should be reversed.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General

JANUARY 2021

